No. 20-5874

In the Supreme Court of the United States
JERRY LARD,

Petitioner,
v.
STATE OF ARKANSAS,
Respondent.
CERTIFICATE OF SERVICE
I, Nicholas J. Bronni, counsel for Respondent, the State of Arkansas, hereby certify that on this day, December 2, 2020, I caused Respondent’s Brief in Opposition to
be served by email, pursuant to this Court’s order of April 15, 2020, and agreement
of the parties, on the following counsel:
Lee Deken Short
Short Law Firm
425 West Broadway, Suite A
North Little Rock, Arkansas 72214
leedshort@gmail.com
Counsel for Petitioner
I further certify that all parties required to be served have been served.
/S/ NICHOLAS J. BRONNI
NICHOLAS J. BRONNI
Solicitor General
Counsel of Record
OFFICE OF THE ARKANSAS
ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, Arkansas 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov

